<html>
<title> - THE NATIONAL DRUG CONTROL STRATEGY FOR 2008, THE FISCAL YEAR 2009 NATIONAL DRUG CONTROL BUDGET, AND COMPLIANCE WITH THE ONDCP REAUTHORIZATION ACT OF 2006: PRIORITIES AND ACCOUNTABILITY AT ONDCP</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   THE NATIONAL DRUG CONTROL STRATEGY FOR 2008, THE FISCAL YEAR 2009 
      NATIONAL DRUG CONTROL BUDGET, AND COMPLIANCE WITH THE ONDCP 
  REAUTHORIZATION ACT OF 2006: PRIORITIES AND ACCOUNTABILITY AT ONDCP

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2008

                               __________

                           Serial No. 110-192

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-699                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DIANE E. WATSON, California          DAN BURTON, Indiana
CHRISTOPHER S. MURPHY, Connecticut   CHRISTOPHER SHAYS, Connecticut
DANNY K. DAVIS, Illinois             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
BRIAN HIGGINS, New York              CHRIS CANNON, Utah
BRUCE L. BRALEY, Iowa                BRIAN P. BILBRAY, California
------ ------
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2008...................................     1
Statement of:
    Carnevale, John, Ph.D., president, Carnevale Associates, LLC; 
      and Rosalie Liccardo Pacula, Ph.D., co-director, Rand Drug 
      Policy Research Center.....................................    55
        Carnevale, John, Ph.D....................................    55
        Pacula, Rosalie Liccardo, Ph.D...........................    68
    Walters, John P., Director, Office of National Drug Control 
      Policy.....................................................    13
Letters, statements, etc., submitted for the record by:
    Carnevale, John, Ph.D., president, Carnevale Associates, LLC, 
      prepared statement of......................................    58
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     5
    Pacula, Rosalie Liccardo, Ph.D., co-director, Rand Drug 
      Policy Research Center, prepared statement of..............    70
    Walters, John P., Director, Office of National Drug Control 
      Policy, prepared statement of..............................    17


   THE NATIONAL DRUG CONTROL STRATEGY FOR 2008, THE FISCAL YEAR 2009 
      NATIONAL DRUG CONTROL BUDGET, AND COMPLIANCE WITH THE ONDCP 
  REAUTHORIZATION ACT OF 2006: PRIORITIES AND ACCOUNTABILITY AT ONDCP

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:22 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Tierney, 
Souder, Cannon, and Issa.
    Staff present: Jaron R. Bourke, staff director; Charles 
Honig, counsel; Jean Gosa, clerk; Emily Jagger, intern; Leneal 
Scott, information systems manager; and Jill Schmaltz and Alex 
Cooper, minority professional staff members.
    Mr. Kucinich. The committee will come to order. Sorry for 
the delay. Some of the Members know that our procedural votes 
have kind of made hash of the schedule, but we are going to 
proceed right now with the hearing.
    I want to welcome the presence of the ranking member, Mr. 
Issa, and a person who has been long involved on national drug 
issues and for whom I have a great respect for his efforts, Mr. 
Souder. And my colleague, Mr. Tierney, joins us from our side 
of the aisle here.
    We are here today to address the Office of National Drug 
Control Policy's stewardship over the national drug control 
programs. First the good news. There are some successes that we 
can all celebrate: notable declines in youth drug usage, the 
proliferation of pragmatic evidence-based programs such as drug 
treatment courts, and ONDCP's focus on the more recent threats 
posed by prescription drug abuse and methamphetamine. I am 
confident that the Director will elaborate on these and other 
successes in his testimony. However, the larger picture of 
ONDCP's accountability and overall effectiveness is less 
heartening.
    First, I want to again commend Mr. Souder and Mr. Cummings 
for their work as Chair and ranking minority member of our 
predecessor Subcommittee on Criminal Justice, Drug Policy, and 
Human Resources, ensuring that ONDCP consistently exercised its 
statutory responsibilities in setting our Nation's drug control 
priorities. While there were issues of disagreement, the 
members of the Criminal Justice Subcommittee exhibited an 
admiral bipartisan commitment to working with ONDCP to make it 
accountable, transparent, and effective.
    The culmination of the subcommittee's work was Congress's 
passage of the ONDCP Reauthorization Act of 2006, which bore 
the stamp of this committee more than any other. The 
Reauthorization Act set levels for and conditions on spending 
for ONDCP's three largest programs: HIDTA, the National Youth 
Anti-Drug Media Campaign, and the Drug-Free Communities Support 
Program. Perhaps more importantly, the Reauthorization Act 
mandated reforms to ONDCP's organizational structure and 
processes and its interactions with Congress. These reforms 
were crucial because of the complexity of ONDCP's 
responsibility in coordinating a multi-billion dollar national 
drug control budget spread across many Federal agencies.
    Put simply, Congress wanted to ensure that ONDCP upholds 
its statutory responsibility to identify, develop, and advocate 
for drug control policies that are effective in reducing drug 
abuse. Lack of transparency and accountability at ONDCP impairs 
ONDCP's and Congress's ability to determine which of the 
Federal drug controls are effective in combating drug abuse. To 
that end, the Reauthorization Act focused on ONDCP developing 
and implementing improved performance measures. It also 
mandated numerous reports to Congress to ensure that ONDCP was 
addressing important issues and sharing what it learned with 
Congress.
    Importantly, the Reauthorization Act also required that the 
National Drug Control Budget that ONDCP certifies include all 
funding requests for any drug control activity, including costs 
attributable to drug law enforcement activities such as 
prosecuting and incarcerating Federal drug law offenders. This 
requirement was necessary because ONDCP had, in 2002, dropped 
many of these costs from the budget.
    The removal effectively reduced the budget's size by one-
third, exaggerated the proportion of the budget slated for drug 
treatment and prevention, and obscured important components of 
this Nation's drug control programs. In passing the 
Reauthorization Act, Congress explicitly rejected ONDCP's new 
methodology and mandated ONDCP prepare and certify a unified, 
comprehensive budget including all these costs to inform 
Congress and the broader public of the full scope of drug 
control program expenditures.
    Unfortunately, the fiscal year 2008 National Drug Control 
Budget completely omitted the activities that Congress ordered 
reinstated, and the fiscal year 2009 budget relegates these 
activities to a skeletal, one-page table in the appendix.
    Does Congress require a detailed reporting from ONDCP? Yes, 
we do. A sober assessment of the quantity and breadth of 
congressional reporting mandates--involving such varying 
subjects as improved performance measures for the Media 
Campaign, updates on drug price and purity data, plans for 
using unexpended funds in the Counterdrug Technology Assessment 
Center, specifics of ONDCP staffing levels, plans for using 
policy research funds, and close accounting of ONDCP's travel 
budget--reveals an agency in need of aggressive congressional 
oversight.
    ONDCP seems unwilling to comply with the standards of 
accountability that Congress has imposed. The Deputy Director 
of ONDCP has informed this subcommittee that ONDCP believes the 
Reauthorization Act did not require ONDCP to revert to its 
previous budgeting methodology. Frankly, ONDCP's obstinacy in 
the face of unambiguous statutory language and clear 
legislative history is troubling. Even if ONDCP's noncompliance 
with the act were confined to the budgetary issue, it would be 
a serious issue. However, the lack of accountability is more 
widespread.
    Maybe not surprisingly, given the burden imposed on it, 
ONDCP has also been deficient in providing the reports mandated 
by the Reauthorization Act. Some of the completed reports are 
only minimally compliant with what was requested by the act, 
and a good portion of these reports submitted were 3 or 4 
months late. Finally, other reports are long overdue and are 
not yet submitted, including reports on best practices in 
reducing use of illicit drugs by hard drug users, drug testing 
in schools, and the impact of Federal drug reduction 
strategies.
    In its interactions with this subcommittee leading up to 
this hearing, ONDCP has continued to demonstrate a lack of 
accountability. Even well after their February 1st statutory 
due date, ONDCP would not provide the subcommittee with a firm 
date for the release of the National Drug Control Strategy and 
its budget. Ultimately, they were released on February 29th, 
still dated February, but a month late.
    While I am pleased that Director Walter is testifying here 
today, his written testimony--due Monday morning--was not 
submitted to the subcommittee until yesterday evening. More 
troubling still is this testimony entirely omits discussion of 
ONDCP's compliance with the Reauthorization Act despite 
repeated clear requests that these issues be addressed. Viewed 
in isolation, an incomplete budget, an insufficient or 
incomplete report, or a delayed or partially deficient 
testimony may or may not be excusable; viewed together, these 
practices form a pattern of noncompliance that frustrates 
policy formation and congressional overview alike.
    Perhaps most troubling is the prospect that ONDCP's lack of 
accountability encompasses and extends to the internal metrics 
it uses to guide its own policy formulation. Because it doesn't 
employ consistent or useful performance measures and frequently 
shifts its policy goals, it is difficult to determine if our 
Nation has actually made progress in combating drug abuse. Our 
second panel is going to examine the deficiencies in ONDCP's 
budget process and policy evaluation process, and the 
evaluation process may lead to ONDCP to advocate for programs 
that are not cost-effective in reducing drug use.
    In conclusion, while some of the initiatives that Director 
Walters will highlight today are doubtlessly worthy products of 
ONDCP's and other agencies' hard work, without proper 
accountability, it is difficult to determine which programs 
work and which don't. The lack of accountability at ONDCP may 
go a long way to explaining why, over the last 7 years, funding 
for interdiction efforts have doubled and funding for every 
international programs has risen faster than funding for 
treatment, domestic law enforcement, prevention efforts, 
despite research that demonstrates that demand-side approaches 
are generally more cost-effective than supply side approaches.
    This assessment of ONDCP may seem critical, and it is. We 
now have the advantages of reflecting on nearly 20 years of 
ONDCP's operation. We have also begun to see whether reforms 
initiated in the Reauthorization Act have born fruit. This 
hearing is meant to look at the issues broadly. I hope that 
when we get down to the many details of funding and policy 
decisions, this subcommittee can continue the bipartisan 
approach of its predecessor and work cooperatively with ONDCP 
to strengthen our Nation's drug policy.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1699.001

[GRAPHIC] [TIFF OMITTED] T1699.002

[GRAPHIC] [TIFF OMITTED] T1699.003

[GRAPHIC] [TIFF OMITTED] T1699.004

[GRAPHIC] [TIFF OMITTED] T1699.005

[GRAPHIC] [TIFF OMITTED] T1699.006

[GRAPHIC] [TIFF OMITTED] T1699.007

    Mr. Kucinich. At this time, the Chair recognizes the 
ranking member, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. Judging from our audience here, the 
number of cameras, the spectacle that we are all going through, 
we are not going to focus on steroids or human growth hormones 
today. [Laughter.]
    Thank you for that laughter.
    A few weeks ago, Director Walters and I met to discuss the 
current sentencing guidelines for offenses involving crack 
cocaine versus powder cocaine. The impetus for this meeting was 
the U.S. Sentencing Commission recently significantly 
restructured the guidelines for sentencing crack offenses. The 
result, although in the long run perhaps fair reshuffling, 
could cause and will likely cause early release of some of the 
most dangerous criminals presently incarcerated. The prospect 
worried many Members of Congress. I, for one, have wanted to 
harmonize to the actual dosage the real effective rate of these 
two drugs.
    Having said that, it is clear one of the challenges facing 
this committee and others is to ensure that, regardless of the 
type of illicit drug, that the worst offenders in trafficking 
and production serve long sentences. Additionally, because so 
many of these offenses involve serious acts of violence--I 
wasn't talking that long--incarcerated for the safety of our 
community.
    I know there are many other issues that the Director deals 
with every day, and the oversight of this committee certainly 
has every right to focus on the reporting requirement. I am 
equally, though, concerned and interested to hear about the 
successes that have occurred under Plan Colombia, the threats 
that face us from other emerging drug trafficking areas such as 
Mexico to our south and the Dominican Republic.
    Last but not least, thanks to the majority, I think we have 
a chart in front of us today that is particularly instructive, 
with the recent reduction in the rates of people having in 
their systems cocaine and methamphetamine, two of the greatest 
threats to our safety and our community.
    So, Mr. Chairman, I look forward to both parts of this. I 
am actually quite happy that this is dull, but important, work 
being done in a bipartisan fashion, and look forward to the 
testimony of the Director and yield back.
    Mr. Kucinich. I thank Mr. Issa.
    I have just been informed that we have a series of four 
votes, and they are about no more than 5 minutes left before 
they vote, so we will be back. Thank you for your presence 
here, and we will recess until the votes are over; I am 
guessing probably about 40 minutes.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    This is a hearing of the Domestic Policy Subcommittee of 
the Oversight and Government Reform Committee, and the hearing 
today is the National Drug Control Strategy for 2008, Fiscal 
Year 2009 National Drug Control Budget, and Compliance with the 
ONDCP Reauthorization Act of 2006: Priorities and 
Accountability at ONDCP.
    I am Dennis Kucinich, Chair of the committee. I have given 
an opening statement, as has the ranking member. Members of the 
committee will have 5 days to give an opening statement.
    All Members have 5 legislative days to give an opening 
statement to the committee. Also, Members and witnesses may 
have 5 legislative days to submit a written statement or 
extraneous materials for the record.
    There are no additional opening statements, so the 
subcommittee is now going to receive testimony from the 
witnesses before us.
    I want to introduce our first panel. Mr. John Walters is 
the Director of the Office of National Drug Control Policy. As 
the Nation's drug czar, Mr. Walters coordinates all aspects of 
Federal drug programs and spending. From 1989 to 1991, Mr. 
Walters was Chief of Staff for William Bennett, and Deputy 
Secretary for Supply Reduction from 1991 until leaving the 
Office in 1993.
    During his service at ONDCP, he was responsible for helping 
guide the development and implementation of anti-drug programs 
in all areas. From 1996 until 2001, Mr. Walters served as 
president of the Philanthropy Roundtable. During the Reagan 
administration, he served as Assistant to the Secretary at the 
U.S. Department of Education and was responsible for leading 
the development of anti-drug programs. He has previously taught 
political science at Michigan State University's James Madison 
College and at Boston College.
    Mr. Walters, welcome, and we are pleased that you are here 
today. You may know that it is the policy of the Committee on 
Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask, if you would, please, rise 
and raise your right hand.
    [Witness sworn.]
    Mr. Kucinich. Thank you, sir.
    Let the record reflect that the witness answered in the 
affirmative.
    I would ask, Mr. Walters, if you would give a brief summary 
of your testimony and to try to keep the summary under 5 
minutes in duration. If you go a little bit longer, that is 
fine. You have been very patient and you have a right to expect 
the courtesy. Your whole written statement, however, will be 
included in the hearing record. So if you would proceed with 
your testimony, we would be very grateful to hear it. Thank 
you, sir.
    And let's make sure that mic is close by so we can all hear 
what Mr. Walters has to say. Maybe staff could maybe help with 
that too.

STATEMENT OF JOHN P. WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman, Mr. Tierney. I 
recognize the comments of Mr. Issa and, of course, Mr. Souder 
has been working on this issue for a long time, as you noted. 
Thank you for including my written statement. I will summarize 
briefly, tell you where we are. I won't cover all the issues 
that you want to touch on, and I will be guided by your 
questions thereafter.
    Briefly, when President Bush released the first National 
Drug Control Strategy of his administration in 2002, America 
had witnessed a steep increase in illegal drug use. Between 
1992 and 1996, current teen use doubled, virtually, and 
remained stubbornly higher through 2001.
    With bipartisan congressional support, we have now 
implemented a balanced drug control strategy focused on 
preventing Americans from ever starting to use, helping more 
who suffer from substance abuse get treatment, and reducing the 
market for illegal drugs. I think the evidence before us shows 
that the Nation has made progress on all three of these areas, 
in some cases remarkable progress.
    Since 2001, overall youth drug use has decline 24 percent. 
Youth amphetamine use is down 64 percent, LSD use 60 percent, 
ecstacy by 54 percent among teens, and steroid use down 33 
percent. Marijuana alone is down 25 percent. In 2007, 
approximately 860,000 fewer young people are using drugs than 
in 2001. That is obviously good for all of us.
    Workplace drug testing also shows welcome reductions for 
adults. As was alluded to in some of the opening comments, 
workers testing positive for marijuana have declined 29 percent 
from 2000 to 2007; methamphetamine drug test positives among 
workers are declining after a significant increase during the 
first half of this decade, falling by more than 50 percent 
between 2005 and 2007; cocaine drug test positives among the 
general work force declined 19 percent between 2006 and 2007 
alone, to the lowest level since 1997, when cocaine positives 
were first measured by Quest Diagnostics nationwide.
    Overall, drug test positives, as measured by Quest 
Diagnostics Drug Testing Index, show the lowest levels in the 
adult worker force since 1988. Our new goal is to continue 
these reductions and for youth to reduce by another 10 percent, 
youth drug use between 2006 as a baseline and the end of this 
year.
    Let me talk about the three areas we focused on briefly.
    In prevention, for fiscal year 2009, the President has 
requested $1.5 billion. The most powerful prevention program 
used by many of our largest corporations in the work force, by 
the military, and by our transportation industry is random drug 
testing. In the 2004 State of the Union, as you know, the 
President proposed adding Federal support for random drug 
testing in schools. He did this following Supreme Court action 
that settled the issue that random testing could be done in 
schools, provided that the results were held in confidence 
between students and parents and, most importantly, that 
testing could not be used to punish, but had to be used to help 
young people get the help they need. Since this ruling, to the 
best of my knowledge, no random student drug testing program 
has been successfully challenged in court.
    Today, CDC estimates there are over 4,100 schools now 
involved in random testing, and the numbers are growing 
rapidly. The administration has requested $11.8 million for 
random drug testing to fund an estimated 61 additional grants. 
I should point out the majority of these schools that have 
added it have also done this on their own. We have provided 
some support, but that has been something that is started at 
the grassroots.
    Our Media Campaign, we believe, has been an important 
factor. We designed this to focus on messages to young people 
and to parents. The 2009 budget request includes a substantial 
increase for this award-winning campaign, from $60 million that 
was appropriated in 2008 to $100 million in 2009. We believe 
the available evidence shows the campaign is a contributor to 
changing-for-the-better attitudes regarding drug use and has 
been a critical contributor to the declines we have seen in 
drug use among teens.
    Drug-Free Communities, as you may know, is a program lodged 
in ONDCP itself. The administration has requested $80 million 
to support Drug-Free Communities program in 2009. This level 
would fund nearly 650 coalitions. Since the beginning of this 
administration, the program has doubled in dollar amount.
    I know an issue that we all are concerned about is 
treatment and intervention. The 2009 budget request of the 
President includes $3.4 billion for drug treatment and 
intervention programs. In 2002, as you know, the President 
directed us to create a proposal to close the treatment gap: 
the difference between those people who suffer from drug 
addiction and seek treatment and those who receive it. For the 
first time, as a result of additions to national surveys, we 
were able to approximate that about 100,000 people were seeking 
treatment nationwide and not getting it because of inadequate 
services or funding.
    The President launched his Access to Recovery program in 
the 2003 State of the Union address. At that time, HHS 
estimated the average cost of a treatment episode in the United 
States of all types was $2,000, with a gap of $100,000. The 
President asked for $200 million to unilaterally close the 
treatment gap with Federal money. Starting in 2004, Congress 
appropriated half the President's request, $98 million, which 
we have had over 3 years. These initial grants went to 14 
States and one tribal organization targeted on unmet needs and 
included meth treatment, adolescent treatment, treatment in the 
criminal justice system, and other identified gaps.
    ATR expands substance abuse treatment, promotes choices in 
both recovery paths and services, increases the numbers and 
types a providers, uses vouchers to allow clients to pay for 
significant additions to treatment support and recovery, and 
links to the clinical treatment with improved recovery support 
services such as child care, transportation, and mentoring.
    As of September 30th of last year, more than 190,000 people 
with substance abuse disorders have received clinical treatment 
under the program. In 2009 we requested another $98 million. We 
hope the resources will support 24 grantees providing services 
to 65,000 individuals in fiscal year 2009 and another 160,000 
over 3 years. In addition, the Public Health Services provided 
$1.7 million to evaluate fully the program now that it has been 
established.
    In addition, drug courts I know is something that you, Mr. 
Chairman, and others that we have worked with on the committee 
have been particularly concerned about. The 2009 budget request 
includes $40 million to improve and expand treatment services 
to adult, juvenile, and family drug courts, which is an 
increase of $30 million over fiscal year 2008, or a threefold 
increase. The administration will award 82 new grants under 
this proposal.
    In candor, it has been difficult to secure Federal funding 
for drug courts at levels the administration has sought. We 
would welcome additional assistance from members of this 
committee in helping us get those appropriated funds. The good 
news is that drug courts have grown rapidly and doubled in 
number during this administration, to over 2,000 nationwide. 
Still, we need more of them. They save lives and they save 
public resources by breaking the cycle of crime, driven in many 
cases by addiction.
    We also make progress when we build on the central facts 
about addiction into the way we heal the addicted. Most 
families know from personal experience that one of the worst 
aspects of the disease of addiction is that those suffering are 
usually blinded to the fact they are victims of the disease. 
Tell a loved one who has a problem that you think they need 
help, and the common response is angry denial. That is why, for 
many, drug courts have been a critical step in facing their 
disease and finally getting help. But we can and we are 
reaching more people in earlier stages of the disease, before 
they get to the criminal justice system.
    Our fiscal year 2009 budget request includes $56.2 million 
for screening, brief interventions, and referrals to treatment, 
a program that engages the health care community in diagnosing 
and intervening in the substance abuse problems before they 
progress to dependence and addiction. This request represents 
an increase of $27 million over fiscal year 2008. Our goal is 
to make screening for substance abuse as common as checking for 
blood pressure.
    Screening and brief intervention reimbursement has also 
been a feature of the initiatives we have tried to launch. The 
administration has created two new health common procedure 
coding system codes for alcohol and drug screening and brief 
interventions, which became effective in January of this year. 
These codes can be adopted by States and used by health care 
providers. They expand the range of medical settings and will 
enable clinicians to screen more patients for substance abuse 
disorders, prevent use, treat individuals, and ultimately 
reduce the burden of addictive disorders.
    The Federal Medicaid outlays are estimated to be $265 
million in fiscal year 2009. I believe the initiatives the 
administration has proposed, and Congress has supported, in 
prevention, intervention, and treatment, have our Nation on the 
path to increasing dramatically our power to reduce illegal 
drug use, and we need to follow through.
    Now, I see my time has expired. I have some comments about 
supply reduction programs. If you would rather take those in 
questions, I would be happy to take them.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T1699.008
    
    [GRAPHIC] [TIFF OMITTED] T1699.009
    
    [GRAPHIC] [TIFF OMITTED] T1699.010
    
    [GRAPHIC] [TIFF OMITTED] T1699.011
    
    [GRAPHIC] [TIFF OMITTED] T1699.012
    
    [GRAPHIC] [TIFF OMITTED] T1699.013
    
    [GRAPHIC] [TIFF OMITTED] T1699.014
    
    [GRAPHIC] [TIFF OMITTED] T1699.015
    
    [GRAPHIC] [TIFF OMITTED] T1699.016
    
    [GRAPHIC] [TIFF OMITTED] T1699.017
    
    [GRAPHIC] [TIFF OMITTED] T1699.018
    
    [GRAPHIC] [TIFF OMITTED] T1699.019
    
    [GRAPHIC] [TIFF OMITTED] T1699.020
    
    [GRAPHIC] [TIFF OMITTED] T1699.021
    
    [GRAPHIC] [TIFF OMITTED] T1699.022
    
    [GRAPHIC] [TIFF OMITTED] T1699.023
    
    [GRAPHIC] [TIFF OMITTED] T1699.024
    
    [GRAPHIC] [TIFF OMITTED] T1699.025
    
    [GRAPHIC] [TIFF OMITTED] T1699.026
    
    [GRAPHIC] [TIFF OMITTED] T1699.027
    
    [GRAPHIC] [TIFF OMITTED] T1699.028
    
    [GRAPHIC] [TIFF OMITTED] T1699.029
    
    [GRAPHIC] [TIFF OMITTED] T1699.030
    
    [GRAPHIC] [TIFF OMITTED] T1699.031
    
    Mr. Kucinich. Thank you, Mr. Walters, for your testimony. 
Your whole statement will be included in the record. I am sure 
we will be able to get some of the information forward in the 
question period.
    I have been troubled that ONDCP's national drug control 
budget for the last two fiscal years is not a comprehensive and 
integrated account of all national drug control activities as 
explicitly mandated by the Reauthorization Act. The fiscal year 
2009 budget omits at least $5 billion, representing in large 
part the cost of prosecuting and incarcerating Federal drug 
offenders, costs that ONDCP unilaterally decided to exclude 
beginning with its fiscal year 2003 budget. A rough one-page 
accounting of these costs is relegated to the appendix. Nowhere 
in the strategy or budget are the costs otherwise broken down, 
subject to performance reviews, or analyzed.
    Now, Deputy Director Burns expressed a view that ONDCP does 
not agree that the Reauthorization Act mandated that ONDCP 
revert to the old budget methodology and, this omission really 
invites critical inquiry by this committee. Given the clear and 
unambiguous statute and legislative history, could you tell 
this committee why aren't these costs included and analyzed in 
the main portion of this year's national drug control budget 
summary?
    Mr. Walters. Let me go back and maybe correct what may be a 
misunderstanding about how this got started.
    When I came back to the drug office in this 
administration--as you pointed out, I served in the President's 
father's administration as Chief of Staff and Deputy for Supply 
Reduction when the Office was being created--what we had 
accumulated was a budget that, as I think even there has been 
talk, I think, of the Rand Report--some of the people 
testifying after me are going to talk about--even that report 
says old budgets grossly inflated the expenditures for drug 
control; it pretended the Government was doing things that it 
wasn't doing, it wasn't controlling, it wasn't managing.
    I agreed with that from my own experience and I asked that 
the budget reduce the amount of estimated costs in peripheral 
programs where drug control is a secondary issue. At one time 
in the past, for example, Head Start was scored a portion of it 
as a drug control expenditure because some parts of Head Start 
programs sometimes referred people who had a problem for 
treatment to treatment. It wasn't managed; it was a good faith 
estimate. But because Head Start is a big program, it inflated 
the drug control program.
    Now, what is wrong with that? What is wrong with that is 
when I deal with OMB in the past--I will say this OMB has been 
good; I am not criticizing my colleagues now--but when I deal 
with OMB in the past and I have to fight for resources, as you 
have to fight for resources with appropriators, when the budget 
includes a lot of stuff that is estimated or is modeled and 
everything else, they can cut primary things in treatment or 
prevention and say, well, this other big part hides the fact 
that we are making a reduction here that may be central.
    What we did is focus on the budget that was central and 
managed. All the agencies in the current drug control budget 
that we represented are 100 percent drug control programs, or, 
if they aren't--there are, I think, six of them--we now have a 
spending plan from that agency--the Coast Guard, the CBP, ICE, 
Veterans Affairs, Bureau of Indian Affairs, Indian Health 
Service--showing how they are going to expend the moneys we 
present in a direct drug control manner and their IGs verify 
they did that. So when you see the budget, that budget is 
verified to the extent to which we currently have the ability 
to do that.
    Mr. Kucinich. OK, now, let me just follow this. It seems 
like this was decided to handle it this way as a matter of 
policy and that, as a matter of policy, it made no sense to 
include these costs because these expenditures represented 
mixed drug, non-drug costs. I am going back on the work of this 
subcommittee. This sounds exactly like the policy reasons that 
ONDCP gave to justify its decision to change the budget 
methodology for fiscal year 2003.
    But Congress considered this and rejected these 
justifications. Whether or not this subcommittee agrees with 
ONDCP's policy views and its issues is really not relevant 
here. Congress has spoken and in effect said we don't agree 
with your take on policy. To me, it is becoming clear that 
ONDCP doesn't want to implement the change in policy, which it 
always opposed, and is intent on defying this congressional 
mandate, or at least ignoring it.
    So I still want to go back to the point where you got costs 
included and the costs that should be included and analyzed in 
the main portion of the budget summary. Are you still at the 
point of insisting that this just doesn't have to be done 
because that is where you are at? And do you not believe that 
Congress's intent in any way needs to be regarded here?
    Mr. Walters. No, it is never my opinion the Congress's 
intent doesn't need to be regarded, but it is our view that, to 
have credibility in the process and to read the statute as it 
was written, we have complied with the current budget. This is 
also the last budget this administration is going to be 
submitting, so I will pass on, and I am sure the successors in 
my position will pass on.
    But I would also say just one thing about how we relate, 
because I think that is not trivial, in my experience, working 
in the executive branch and Congress. We proposed this in, you 
are right, the 2002 submission of the 2003 budget. We said we 
think we would like to do this. We didn't ram this in; we said 
this is an alternative proposal.
    And we then did it because we had no serious objections. No 
objections from the Hill. We did it in the subsequent year and 
we also presented the budget in the old way in the subsequent 
year. There was no objection. Our process here is being 
presented as we defied this, but this is kind of like talking 
to somebody who is two light years away. We submitted this and 
several years later people said we don't like this. OK, we 
tried to adjust it. We explained it; we followed through.
    Mr. Kucinich. How did you get into at least some of the 
costs, though? You had DOJ expenditures for prosecuting and 
incarcerating drug offenders in a one-page appendix to this 
year's budget. What specific statutory provision obligates 
ONDCP to include these costs in an appendix but not in its 
integrated budget analysis? Or were you just hedging your bets?
    Mr. Walters. No, we understand the authority of the 
Reauthorization to allow us to designate drug control programs 
as a part of the authority of the Office, and we have done that 
and we have complied with the other programs here.
    Again, look, let me just ask you one other thing as you 
look at this for the future, because this is going to be 
something passed on to our successors, obviously, in my job, 
not your job.
    Mr. Kucinich. That is an interesting admission.
    Mr. Walters. Well, I understand how the executive branch 
works.
    But the fact of the matter is you are always going to have 
to focus on the things that work. We are focusing on the 
programs that make a difference with a lot of agencies and with 
the help of Congress. I think you can't get there if you put a 
lot of stuff in there that we don't manage. A large part of 
this discussion has been over the prison costs. We don't manage 
the prison costs; we take an estimate of what people think is 
going to happen. The number of people incarcerated in State and 
local large category has been going down for drugs.
    But we don't manage those costs. And we can't move those 
costs. Something is going to happen and someone is going to 
have to provide a slot. A lot of this has increased because of 
immigration enforcement.
    But the fact of the matter is what we have done is said you 
need money for treatment, you need money for intervention, you 
need money for prevention, you need money for supply control in 
these agencies, and that will make a difference. I think it 
helps us work together to focus on what is making a difference.
    I know there has been discussion and your opening remarks 
talked about for the first time we have a management system 
that links performance to the budget. You can see performance 
measures tied to the budget. I inherited one that didn't. There 
was a lot of bureaucratic back and forth; it didn't work. It 
occupied the space of what had to work. We tore it down and we 
created something that I think works.
    Mr. Kucinich. I want to go to Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Walters for your testimony 
today, for coming and joining us.
    Thank you, Mr. Chairman, for having this hearing. It is 
important on a number of different levels.
    But I want to talk about things that I think we all agree 
work, if I listened to your testimony and prior administration 
statements, and that would be the drug courts on that. I have 
had great response from district attorneys nationwide, as well 
as in my State and district, and from judges themselves, from 
participants.
    But when the staff analyzes your budget proposal, it looks 
as though you have ramped up the money for treatment services 
to try and get people away from the courts before they need to 
get there--and I think that is certainly admirable--but it 
seems to reflect an elimination of over $15 million for new 
drug courts and over $1 million taken out for training and 
technical advice or starting of new facilities. It would seem 
to me that might be a move in the wrong direction, given their 
success and given, at least what I am hearing, the success and 
favorable reviews on that. Would you explain to me what the 
rationale is behind that?
    Mr. Walters. Yes. There is a shift here. We had sought, in 
the past, up to $70 million for drug courts. We have been 
unable to get those appropriations through Congress in the old 
program structure. We have made two shifts based on where we 
think drug courts are now. There may be differences of views; I 
understand that about this. Drug courts seem to be being 
established now quite rapidly and with the existing 
infrastructure being able to handle new drug courts.
    When we talk to people out there in the field that are 
running these or setting them up, what they need is treatment 
services. So we shifted some of our request from the setup cost 
to providing money even in HHS--where we think we may have a 
better chance of receiving the money we request--to support the 
treatment need of the drug courts, because that is a big 
expense.
    If it was an ideal environment, we would do all these 
things. The problem is we have simply had resistance in getting 
the amounts that we wanted in the competitive appropriations 
process in the Justice Department, so we have now moved. Some 
of it is in Justice in a competitive process; some of it is in 
HHS. And we think we have a better chance of actually providing 
Federal support to this rapidly growing area that needs to grow 
and continue to grow.
    Mr. Tierney. Do you have documentation or some evidence 
that would verify what you are hearing about the courts being 
able to use the existing structure and set things up in that 
respect? It would seem to be contradictory to what I am 
hearing, at least in my district, on that. And would you share 
that with the committee?
    Mr. Walters. Sure. I am not quite sure whether we have a 
kind of comprehensive survey of all drug courts, but, again----
    Mr. Tierney. If it is anecdotal, then I think it depends on 
who is listening to who, and that gets me to----
    Mr. Walters. No, I agree.
    Mr. Tierney. And I would rather fight for $15 million and 
$70 million if I had good indications--and I don't have any 
statistical information either, just anecdotal, and I was 
wondering if I would match anecdote to anecdote or if there is 
hard evidence against what I am hearing locally or whatever, 
because I think we all want the same thing, we want to put it 
where it works and make sure we have the structures there to 
deal with it on that basis. So whatever you can get for me, I 
would appreciate.
    The other area I want to question, again, is what I hear, 
at least in my district--I assume other Members might as well--
and that is the use of naloxone, which I guess the trade name 
is, what, Narcan, something on that basis? I am told by 
physicians, people in emergency rooms, by district attorneys 
and others that this is a good tool; it is saving a lot of 
young people that are having problems with OxyContin, heroin, 
things of that nature, whatever. Your department seems to have 
a contrary view of that. Would you discuss that a little bit?
    Mr. Walters. No, we have no contrary view that Narcan is a 
very important medication for people suffering overdose. I 
think the difference here has been whether this can be 
effectively distributed to non-medical professionals or that it 
is a sensible policy to tell people who are addicted, kind of 
carry this around and then when somebody gets an overdose, if 
you feel it, you are going to inject yourself or whether 
friends with you who are also engaged in narcotic or opiate 
addiction are going to be competent and able to properly 
administer this medication.
    Again, all these things cost money and a lot of people can 
differ.
    Mr. Tierney. No, no, I----
    Mr. Walters. Our view is put the money into treatment; put 
the money into outreach.
    Mr. Tierney. Dr. Madrasas' comments shouldn't be construed 
as wanting to take the money out of emergency rooms and things 
of that nature and encouraging them to use it.
    Mr. Walters. No.
    Mr. Tierney. Only that she does not prefer it to be 
distributed to the field.
    Mr. Walters. Yes.
    Mr. Tierney. But it would be to EMTs and others----
    Mr. Walters. Absolutely.
    Mr. Tierney [continuing]. Who may respond on that basis.
    Mr. Walters. Absolutely.
    Mr. Tierney. All right, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I want to go back to this issue of the 
Reauthorization Act. Precisely what ONDCP's position with 
respect to compliance with the Reauthorization Act? Are you 
saying you have complied with it?
    Mr. Walters. With regard to the budget, yes. And I think 
the other aspects I am aware of, but there may be others that 
you have questions about.
    Mr. Kucinich. So you have complied with all reporting 
requirements?
    Mr. Walters. Just so that I am clear and we are together, 
let me just state my understanding of where we are on reporting 
requirements. There are three categories of reporting 
requirements. There were one-time reports required by the 
Reauthorization Act. Our count is there were 20 reports 
required under that category; 19 have been completed; 1 is past 
due, and that is a report on drug testing in schools that we 
were waiting which has just arrived, and we expect to get that 
here quickly.
    There are a series of reports required by the fiscal year 
2008 appropriations. Our count is there were 12 reports 
required. One of those is completed; the number of them that 
are coming due but not yet due is 10; one report is past due, 
and that is a report on meth and its implications for society--
--
    Mr. Kucinich. We would like you to transmit that 
information to the subcommittee.
    Mr. Walters. OK.
    Mr. Kucinich. I look at the 2009 budget and these reports 
may reflect on this because you are making choices. Budgets are 
always a matter of choices. I am seeing a trend that 
prioritizes growth in funding for supply reduction strategies, 
such as interdiction and source country eradication, over 
growth and demand reduction strategies, such as prevention and 
treatment. Now, we have a witness on the next panel who is 
saying that such a choice is not supported by the social 
science. Would you be able to provide this subcommittee the 
specific scientific basis, the evidence on which you base your 
choice to increase funding for interdiction and source country 
eradication over prevention and treatment? Would you do that?
    Mr. Walters. I don't think it works that way, Mr. Chairman. 
And, again, I don't think you think it----
    Mr. Kucinich. What do you mean?
    Mr. Walters. I don't think you think it works that way 
because you know how Congress works. We are not making choices 
against different categories of appropriations. Some of the----
    Mr. Kucinich. No, no, but you are making specific choices 
that produce specific policies.
    Mr. Walters. Yes, but when we increase prevention money or 
treatment money, that is going against things in the Education 
Department, in HHS, in SAMHSA; that is not going against things 
in the Defense Department.
    Mr. Kucinich. OK, absolutely. We are talking about things 
within your own budget. Now, for example----
    Mr. Walters. But that means we are not making a choice to 
say the Media Campaign is better or worse than the Coast Guard. 
We are making a question about whether the Media Campaign is 
better or worse than the four programs in my office, which are 
HIDTA, which are the Media Campaign, the Drug-Free Communities, 
and CTAC.
    Mr. Kucinich. I want to understand your thinking here about 
the budgeting, because what you have is, you know, according to 
one report, since fiscal year 2002, Federal spending on supply 
side efforts--interdiction, law enforcement, overseas 
activities--has grown 57 percent; whereas, spending on 
treatment and prevention grew 2.7 percent. You take the choices 
that are being made on the budget, you match them to where you 
put your inflection with your policies, and, Congress had an 
intent here to kind of balance this out in a bipartisan way, 
and I am not getting yet that is where you are coming from.
    Mr. Walters. OK, if we can, I think we need to get----
    Mr. Kucinich. I don't want to run your department, but I 
need to know how you are running your department.
    Mr. Walters. Yes. No, you do and I think, again, you also 
know that there is kind of a cartoon version of this, that one 
is being judged against the other and, as we just talked about, 
that is not the case. They are competing against real 
priorities in the domestic realm and in the foreign realm. Let 
me talk about supply control.
    There have been some decisions to increase spending for 
specific drug control mission-oriented programs in the supply 
area, but one of the things that has contributed to the growth 
of supply control, as you know, is the decisions by the 
Executive and Congress to increase border security; some for 
drug control reasons, some for homeland security reasons, some 
for issues of getting control of the border.
    We have had increases, for example, in drug control 
programs in Afghanistan. Virtually none of the heroin in the 
United States comes from Afghanistan or West Asia. It would be 
prudent to be aware that it could, but the fact of the matter 
is the efforts that we are making in that country are driven 
not simply by drug control reasons, but because we know the 
opium crop in Afghanistan is corrosive to counter-terror 
efforts, stability of Afghanistan, stability of huge parts of 
the country.
    Now, we have properly scored those programs in the budget, 
but we didn't make a decision that we are going to spend money 
either on the community coalitions program or Afghanistan. 
Afghanistan came from a decision which there is debate over, I 
understand, but that decision had to do with a series of 
national security issues, which we have properly represented in 
the budget, but we didn't take any money from the demand side.
    Mr. Kucinich. So when the administration decreases, or will 
try to decrease, the share of the National Drug Control budget 
reserve for prevention by $250 million, 14 percent, while 
increasing interdiction by $616 million, or 19 percent, we look 
at from fiscal year 2002 to fiscal year 2009, funding for 
interdiction efforts doubled; funding for international 
programs such as the crop eradication efforts in Plan Colombia, 
the Andean Drug initiative have risen faster than funding for 
treatment, domestic law enforcement, and prevention efforts.
    Are these numbers correctly stating the proportion of 
funding for treatment and prevention? Because I don't see the 
data in your up-front budget report. It seems to me, the first 
thing that comes to me is maybe you are omitting some 
information here that makes it difficult for Congress to be 
able to make an assessment of where we are actually at with 
these policy choices.
    Mr. Walters. We should be able to explain to you the 
specific choices, because we have made those with some care in 
each of these cases. We may have disagreements where reasonable 
people differ, but I don't believe we have an unreasonable 
position. To disaggregate this, let me take the example of the 
prevention dollars you talked about.
    Almost all the debate over those prevention dollars has 
been over the proposal of the administration--which has not 
been accepted over the last several years--to reduce the amount 
of money in the State grants of the Safe and Drug-Free Schools 
program in the Department of Education. How, why did we make 
that decision? There had been repeated evaluations--including 
some by the same Rand Corp. that is going to have some 
authority in the next panel, as I understand it--saying the 
program is spread too thin over too many areas with too small 
amount of money; it can't show it makes results.
    So in this case we have chosen to protect moneys for 
programs that we think can work. We put money, as I say, into a 
new program to help support random student drug testing; into 
part of our effort to reach screening includes screening in 
health clinics in schools, not in Education, but in HHS; we 
have sought to expand and support our Youth Anti-drug Media 
Campaign. We have made decisions here. It is at a reduced 
amount of money, but to put more money in programs that don't 
work we don't think makes sense.
    Now, on the international side, yes, we have spent money on 
the Andean Counter Drug Initiative. We think that is working; 
it is saving lives here; it is producing some of the lack of 
availability of cocaine that you see driving the declines that 
we are seeing; it is helping to stabilize an important ally in 
the face of these threats; and it is also, frankly, a 
bipartisan program that, as you know, started with the Clinton 
administration, and we are proud to be the people who are 
continuing to carry that on.
    We have proposed additional money, as you know, for the 
merit initiative for Mexico. That is reflected in our budget. 
It is a substantial amount of money. The first tranche is in 
the supplemental pending before you; the second is in the 2009 
budget. It is a total of $1.4 billion. Again, why did we do 
this? Because we think there is a unique opportunity with the 
leadership of President Calderon to change the face of 
destruction of institutions in Mexico that we can help them 
with their own money and resources accelerate for the good of 
both countries. We think already the efforts by the Mexican 
government have helped, again, to reduce the availability of 
cocaine that we see reflected in declines in use and the 
availability of methamphetamine has dropped dramatically.
    Again, these are programs that we are already seeing 
results on, that supply control, for the first time, is doing 
something that supply control talked about doing in the past 
and couldn't do: changing the availability of drugs and 
changing the most important thing, which is the number of 
users.
    Mr. Kucinich. OK, we raised the question about the 
compliance with the Reauthorization Act; you have made your 
response. We talked about drug control strategy and budget 
priorities and balance. I want to talk a little bit about the 
supply side initiative and cocaine price and purity data.
    In November, the ONDCP announced the average price of 
domestic cocaine increased 44 percent in the first part of the 
year. At the time, you characterized it as the deepest and 
longest cocaine shortage that we have ever had. But outside 
observers have pointed to four such cocaine price effects since 
1981. After each of these increases, the price of cocaine 
substantially fell back to historical trend lines. In addition, 
despite increasing amounts of money devoted to supply side 
strategy such as eradication, interdiction, and law 
enforcement, cocaine and heroin have become less expensive and 
more potent over the last 25 years.
    In the 2008 strategy, you suggest that the cocaine price 
strike and associated decline in positive cocaine tests and 
hospitalizations were more than transitory, but the most recent 
national drug threat assessment released in November by DOJ 
noted that cocaine prices had already declined in some markets 
and predicted that the best cocaine production in South America 
appears to be stable or increasing cocaine availability could 
return to normal levels during late 2007 and early 2008. That 
is a quote.
    Do you expect this to be anything more than a temporary 
blip? And if so, on what basis do you expect it to be? Also, 
does ONDCP employ any performance measures to its eradication/
interdiction policies that are tied to trends in a domestic 
price and purity trends of heroin and cocaine or that link 
these supply initiatives to reductions in drug use and abuse? 
What are they?
    Mr. Walters. This has been a challenge for decades, of 
course: what difference does supply make? Do we ever do more 
than chase this around? And I think the difference that we saw 
here is not only the old method of looking at price and 
purity--and these are the data that have just been released 
that show up through the end of 2007 the changes in price and 
purity for cocaine and even more starkly for methamphetamine--
but we also have the underlying data from workplace drug 
testing now that has over 8 million tests a year, many of the 
data go down to three-digit zip codes and show us what the use 
is.
    Again, what is price and purity? It is an intersection of 
supply and demand. It shows us what the cost and what the 
efforts to meet the demand through dilution or concentration 
are in the marketplace. What we have seen for the first time, 
and what my comments before--and I think they are still true 
together, and I gather that is part of your question--is the 
availability of cocaine seems to be a critical factor in 
driving down, as the availability of meth is, the number of 
users. The number of users at a much smaller number--and, 
again, cocaine users are now at the lowest level we have ever 
measured--at a much smaller number means that the demand has 
been diminished. That is a good thing. That will allow some 
recovery if we don't continue to reduce supply on the price 
side, and there has been some adjustment.
    But, again, I started working on this during the Reagan 
administration. We haven't had some of these data sets before. 
We are glad to have the insight they give us and they give you, 
we hope. There has never been a demonstrable, sustained 
reduction in the availability of cocaine reflected in use over 
as long a period. This happened--initially the reports were--in 
the beginning of last year. You see the workplace data that 
shows the changes and the continued decline.
    Yes, month-to-month, there is a little bit of up and down 
in some of these phenomenon because they are not machines, they 
are people underneath this data, but what we have had is a 
sustained decline. In the past, the only declines we could 
detect were declines that we thought were demand-driven. That 
is why the argument you heard about it is demand investments 
that make a difference. I think what we have in this new 
environment is that for the first time substantial and 
sustained declines that are reinforced, certainly, by what we 
do in treatment and prevention, but are driven by supply 
control.
    Mr. Kucinich. OK, you are making a case that your position 
is the best way to reduce harms associated with substance abuse 
is to reduce substance abuse, to stop people from using drugs. 
We all agree, absolutely agree on this goal, but I am worried 
that a fixation on drug use reduction obscures other important 
problems associated with drug use.
    For instance, I applaud the fact that fewer Americans use 
illegal drugs than 10 years ago, but the number of Americans 
dying from drug use has substantially increased. And isn't this 
relevant measuring our progress on the war on drugs? And if 
drug rate use declines, let's say, by 10 percent but the number 
of people dying from drug overdose increases by 60 percent, the 
more people who contract HIV/AIDS from sharing needles, how do 
you address that conundrum?
    Mr. Walters. Well, I think we both agree the most powerful 
way to stop all the consequences of drug use--death, 
destruction of your life, your family, your health--is to, 
first and foremost, try to reduce the number of people that 
start. We know that starts in adolescence in the United States. 
We are encouraged that these numbers are down.
    I mean, your and my generation now has the highest rates in 
our 50's and 60's of alcoholism and substance abuse because we 
had the highest rates of exposure as teens. We didn't know that 
at the time. We got a bum rap; this is not going to be a 
problem. We now know that we increase the risk of young people 
when we expose their brains to these substances in adolescents 
because their brains are still developing. So these kids today, 
this 24 percent reduction, they are likely to be safe for the 
rest of their lives and won't suffer that death. We need to, 
first and foremost, reduce that onset. Second, we need to treat 
the phenomena. The best way to stop the crime, the family 
destruction, the blood-borne disease is to get people into 
treatment and recovery. Every dollar we can spend there, we are 
trying to drive in that direction through the health care 
system, through the criminal justice system.
    Mr. Kucinich. Fine, Mr. Walters, but what about laying out 
specific goals, targeted goals to reduce the number of hard-
core drug addicts? Because I haven't seen you really lay that 
out in your----
    Mr. Walters. Again, what we try to do is have goals that we 
can actually measure. As you know, there is a lot of cynicism 
in this field because people have promised things they couldn't 
deliver----
    Mr. Kucinich. So this is a thing you can't measure, if you 
add additional measurement criteria and performance goals 
relating to, let's say, drug overdose deaths, HIV transmission 
rates, number of hard-core addicts, that this would be 
something that you couldn't measure?
    Mr. Walters. No, I think some of them are easier than 
others and I think there is more data. For hard-core drug 
users, there have been estimates--my office has produced and 
tried to use estimates. And I have looked at the models; I have 
worked at this a long time. Those models have confidence 
rates--actually measuring the number of hard-core, you know how 
hard that is. You have looked at this a long time. People on 
the street, people who hide this behavior because of shame, 
people who are functioning but are falling out of the system or 
falling back into the system at various times, we can create 
numbers that let us think we are measuring hard-core users. I 
am not sure they are measuring hard-core users. So then, to say 
you are going to take that many--what I can tell you is what 
these programs are treating----
    Mr. Kucinich. If you can create those numbers, even if you 
have to qualify them, I think it would be helpful for this 
committee to look at specific targeted goals that you have for 
reducing hard-core addicts.
    Mr. Walters. We have some of those. If I can ask----
    Mr. Kucinich. And also measuring----
    Mr. Walters. Tell me if this is the kind of number you 
want.
    If you put up chart No. 5.
    [Slide.]
    Mr. Walters. This is from the National Survey on Drug 
Abusive Health, people in households. It measures the number of 
people who report using drugs on the left-hand side and it 
measures the 7 million estimated people that are dependent or 
abuse drugs such as they need treatment intervention on the 
right. Red is the users; the purple is the addicted. So we can 
measure that. Now, again, that is self-reported data. We built 
in essentially intake data at treatment, try to determine 
whether their use is at the level of abuse or dependency and 
they need treatment. We can measure that.
    Now, again, we produce that data annually, it is an annual 
report. We have not given you a goal to reduce the number of 
those people because I don't know that there is a credible way 
of identifying our program dollars as they are mixed with State 
and local program dollars or with private dollars to actually 
close that gap.
    And I will say one other thing about this, which is why we 
are doing screening, and I talked about it and we talked about 
it, I think, when I met with you. The difference between this 
problem and a regular health care problem like breast cancer--
maybe some of these like breast cancer or like something that 
would be more visible like appendicitis--is you know people 
hide this; that this phenomenon is one that people deny to 
themselves and they hide themselves.
    Most people who suffer from this, 90 percent of them don't 
believe they have a problem and don't seek help. We need to 
bring them in; that is why the emphasis on screening, on drug 
courts, on work in schools and with families. So we can look at 
that, but, again, I think that is where we need to pull more 
people, because I think the ability to have people raise their 
hand and say I am somebody who needs drug treatment and, 
therefore, get a census is extremely limited and more 
misleading in some cases than not.
    Mr. Kucinich. In your 2006 strategy and your testimony you 
pointed to random student drug testing as a key component to 
your prevention program. Have you done any research on that 
indicates its effectiveness?
    Mr. Walters. Yes, we have had a couple of different studies 
that we have looked at, some from the schools that have done 
random testing over a period of time. Some of them have had 
either surveys of what the rates of use were before they 
implemented--we recommend they do that when they implement the 
program now--but, second, some of that had been done even 
before the program and the reason why we recommended it was 
visiting De La Salle School in New Orleans before Katrina. They 
are one of the long-time testing programs that had problems 
with all the things you see from drugs: dropouts, fighting, 
truancy. They instituted a program that changed the environment 
of the school.
    After Katrina, De La Salle was the first high school in New 
Orleans to open. Even though it is a parochial school, it 
accepted everybody that was there because there was a desperate 
need. It stopped the testing program under those circumstances; 
it couldn't operate it. As the school got up and running, they 
began to have some of the old problems they had before. They 
re-instituted the drug testing program and those problems 
subsided.
    We have had other schools in New Jersey and other places 
that have had not only surveys, but have had periods where the 
programs for reasons outside the school cause had been turned 
on or turned off, and they show you the difference between the 
program on and program off.
    We are looking at additional research about this 
nationwide, but, again, testing has been an enormously powerful 
force for adults in the workplace, in the military, as you 
know, in the transportation and safety industry. I don't think 
there is much debate in the formal structure. I recognize there 
is----
    Mr. Kucinich. What about compulsory testing for all 
students?
    Mr. Walters. Well, for private schools, many of them do 
test all students. For public schools, as you know, what the 
Supreme Court has reviewed is testing for those in 
extracurricular activities. That usually means schools can 
allow parents to opt kids in that are not in extracurricular 
activities. Some do. It is a bigger pool----
    Mr. Kucinich. So you are mindful of the civil liberty 
issues here with respect to the children.
    Mr. Walters. Absolutely. But why does this work? This, I 
think, is something important and I really hope you, because of 
the positions that you have taken and the kind of leadership 
you can offer here that I can't, frankly, in certain areas. If 
we understand substance abuse as a disease, we have to 
understand that testing is like screening, as a public health 
matter, for other diseases, as we have done for tuberculosis. 
It is not a source of shame, it is a source of bringing the 
resources of society to those who are suffering from that 
disease and help keep them from the consequences of destruction 
and death.
    Mr. Kucinich. But even if you have some kind of a chronic 
disease, you have the right to be tested or not. I mean, you 
can go and submit to a test; no one can tell you you have to be 
tested. That is the difference.
    Mr. Walters. Well, as an adult. But take my example of 
tuberculosis. There are many States that require a child to 
have a tuberculosis test before they can come to school. It is 
required. Now, why do they do that? Because children are not 
adults and we are responsible for their health and, second, 
because we know how to treat that disease and we know if we 
don't treat someone who is infected, they will get sicker and 
can die; and, second, they will infect every other child and 
adult, potentially, they come in contact with.
    I think what we are understanding with the disease of 
addiction is it happens the same way, although not by a 
bacillus or a virus; by behavior. A child who starts using, 
tries to get their friends to use them. We can break that 
cycle. We can break the cycle of inter-generational substance 
abuse by using the tools on the table.
    That is what I meant in my oral statement about I think we 
are on the verge of revolution. We are removing the shame, 
treating this as a disease and using what we know about 
epidemiology to really change the face of this, so that when 
you get a physical, when you bring your child to the 
pediatrician, they ask about substance abuse and drinking, and 
they can make a medical intervention. It is not in the juvenile 
justice system, it is not when the disease has progressed.
    We need help in making this a kind of social revolution so 
we expect our communities to stand together and say if you have 
a problem, we are going to help you. We are not going to throw 
you away; we are not going to wait until you drop out of school 
or go into the criminal justice system.
    We have an obligation as a society, since we can treat this 
disease. Every single person who suffers from it and is 
untreated needs to be seen as an obligation of society to 
treat; in the public system, in the private system, in 
community organizations, as well as in government. We have to 
be together; we can't just turn this over to government. This 
has to be done at the local level. But if we do that, that is 
when we really change the future of substance abuse in the 
country in a permanent way. That is what I think this 
revolution is about.
    Mr. Kucinich. Well, I certainly appreciate your own passion 
and, of course, the concerns that some of us have as you talk 
about prevention, is that those programs are funded. Now, our 
next panel we are going to get some analysis of that. I want to 
say, Mr. Walters, the committee will have some questions that 
we will submit as a followup to this meeting, and we will have 
more hearings on drug policy, which will be an opportunity to 
go into some more specific areas. I want to thank you for the 
comprehensive answers that you have given.
    Before Mr. Walters leaves, Mr. Cannon, do you want to ask 
him any questions?
    Mr. Cannon. Thank you, Mr. Chairman. I am just here to sort 
of fill a seat.
    Mr. Kucinich. Oh, OK. The Republican conference is well 
represented by your presence.
    But anyhow, Mr. Walters, thank you very much----
    Mr. Walters. Thank you.
    Mr. Kucinich [continuing]. For the comprehensive answers 
that you have given. And I would also say to keep in mind with 
respect to the bipartisan concerns that we have here, is that 
the Reauthorization Act imposed some metrics and we are still 
waiting, and I don't want to diminish the efforts that you are 
making, but----
    Mr. Walters. And I would appreciate the opportunity. We 
have had staff come up to me, your staff, I think, for quite 
some time in preparation for this hearing. I will meet with 
you, I will meet with other Members. We want to make this work. 
We have trends that have never happened before. They won't 
continue if we don't follow through. It is a critical time with 
changes of administrations.
    Mr. Kucinich. Well, let's work together on this, though, 
OK?
    Mr. Walters. I would be happy to.
    Mr. Kucinich. Thank you, Mr. Walters.
    Mr. Cannon. May I just say thank you also, Mr. Walters? We 
appreciate your being here.
    Mr. Kucinich. Thank you, Mr. Cannon.
    We are going to go to the next panel and thank the next 
panel for its patience, forbearance. You have been here a few 
hours waiting to come forward.
    OK, our next panel, we have Mr. John Carnevale and Ms. 
Rosalie Liccardo Pacula.
    Mr. Carnevale is the president of the Carnevale Associates 
LLC, a strategy public policy firm. He served three 
administrations and four directors within the executive branch 
of the U.S. Government. At the White House Office of National 
Drug Control Policy he directed the formulation of the 
President's National Drug Control Strategy, as well as the 
Federal Drug Control budget. Mr. Carnevale is recognized as the 
key architect of the Performance Measures of Effectiveness 
[PME], system, which ONDCP used to determine progress toward 
national goals and objectives. He is also credited with 
directing policy research that shifted the primary focus of the 
Nation's drug control strategy from supply to demand reduction. 
Mr. Carnevale has also worked as a researcher at the Office of 
Management and Budget and in the U.S. Department of Treasury in 
the Office of State and Local Affairs.
    Ms. Rosalie Liccardo Pacula earned her Ph.D. from Duke 
University in 1995. She is a senior economist and co-director 
of the Drug Policy Research Center at RAND, as well as a 
faculty research fellow at the National Bureau of Economic 
Research. Ms. Pacula's research has largely focused on 
evaluating the effectiveness and cost-effectiveness of State 
and local public policies that diminish use and abuse, as well 
as their costs. Previous and ongoing research areas include 
analyses evaluating the impact of marijuana decriminalization 
and medicalization of youth marijuana use and marijuana 
markets; the impact of enforcement and policy on drug markets; 
the cost benefit of drug treatment and school-based prevention 
programs; social costs associated with marijuana use; the 
impact of funding volatility on substance abuse treatment and 
outcomes; and changes in the global drug market over the past 
10 years.
    As part of this larger research agenda, she has done in-
depth policy analysis of State level parity legislation, 
medical marijuana laws, and impact of State funding volatility 
on treatment availability and quality in California. She is 
currently the principal investigator at a 4-year grant from 
National Institute of Drug Abuse to update and improve previous 
estimates of the social cost of drug abuse in America.
    Thank you to both witnesses for being here. You are 
certainly well qualified to be able to make statements on these 
issues. It is the policy of our Committee on Oversight and 
Government Reform to swear in all the witnesses before they 
testify. I would ask that our witnesses please rise and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. Let the record show that the 
witnesses have answered in the affirmative.
    As with the first panel, I would ask that you give an oral 
summary of your testimony. Try to keep the summary 5 minutes in 
duration. Please don't go too much beyond that. I want you to 
know that any written testimony that you have, the entire of it 
will be included in the record.
    I also want Mr. Cannon to know that if he has any statement 
or questions for the record, that we will be happy to receive 
them.
    So why don't we begin with Mr. Carnevale? Thank you.

   STATEMENTS OF JOHN CARNEVALE, PH.D., PRESIDENT, CARNEVALE 
    ASSOCIATES, LLC; AND ROSALIE LICCARDO PACULA, PH.D., CO-
           DIRECTOR, RAND DRUG POLICY RESEARCH CENTER

               STATEMENT OF JOHN CARNEVALE, PH.D.

    Mr. Carnevale. Good afternoon, Mr. Chairman and Congressman 
Cannon. I want to thank you for the opportunity to present my 
views on this Nation's progress in the so-called war on drugs. 
By way of my background, as you mentioned, I have been involved 
in the National Drug Control Policy for well over 20 years as a 
Federal employee and have served under three administrations 
and four drug czars. While at ONDCP, I was in charge of 
formulating the National Drug Control Strategy in the Federal 
budget to implement it. Another responsibility was to design a 
performance measurement system that Congress and GAO found 
quite acceptable in meeting ONDCP statutory requirement to 
develop such a system. I left ONDCP in 2000 and remain active 
today in drug policy work at all levels of government.
    My purpose here today is twofold. One is to quickly review 
ONDCP's claim that we are turning the tide in the drug war. In 
my opinion, the tide has not yet turned. My second objective is 
to talk about ONDCP's future. In less than a year, a new 
administration will assume office, and we must be ready to 
assist it in making ONDCP more effective.
    Let me start with the issue of whether we have reached a 
turning point in the drug war. Figure 1 of the 2008 Strategy 
Report shows youth drug use since 2001 has declined after a 
decade of increase. This is used to make the point that we have 
reached a turning point in the drug war. However, as this 
figure clearly shows, youth drug use actually started its 
decline after the 1996-1997 time period. This means that the 
so-called turning point actually occurred in the last decade. 
Second, the claim that we are turning the tide overlooks the 
fact that the current strategy also has a similar goal to 
reduce drug use among adults. For the record, there has been no 
change in adult illicit drug use since 2002.
    This now brings me to the topic of performance measurement. 
I developed a performance measurement system in the 1990's that 
linked the budget to key outcome measures. It was one that was 
endorsed by, as I said earlier, the GAO and the Congress. The 
system focused on performance measures in three basic areas: 
one had to do with drug use; the second area had to do with 
drug availability; and the third had to do with drug use 
consequences, essentially health and crime consequences.
    Current law requires that ONDCP develop performance 
measures in exactly these three areas. It has not. Instead, it 
has limited performance measurement to just one area: drug 
use--and mostly youth drug use.
    So what about progress in other performance areas? It is 
fair to say, in my mind, that progress is lacking. Consider the 
following. The overall rate of illicit drug use has not changed 
since 2002. And this is as measured by our National Survey on 
Drug Use and Health. This rate was 8.3 percent in both 2002 and 
in 2006. Adult drug use, for those over 18 years of age, has 
not changed since 2002.
    Almost 20 percent of those 18 to 25 years of age and 6 
percent of those over 25 continue to use illicit drugs on a 
regular basis. About 7 million individuals remain addicted or 
abuse illicit drugs. This is unchanged since 2002. And, by the 
way, cocaine flow toward the United States, according to the 
2008 Strategy, increased from 912 metric tons in fiscal year 
2006 to 1,265 metric tons in fiscal year 2007, an increase of 
almost 40 percent.
    I would like now to turn to the topic of challenges facing 
ONDCP. Right now, ONDCP is not meeting many of its most 
important statutory obligations. Some highlights. It is not 
providing the Nation with a comprehensive accounting of Federal 
drug control spending; it is ignoring billions of dollars in 
Federal drug control spending that policymakers need to know 
about to make more informed decisions.
    It has not implemented a performance measurement system 
that attributes the relative contributions of treatment, 
prevention, law enforcement, interdiction, and source country 
programs to outcomes across the three outcome areas I spoke to 
you about a minute ago; it is not coordinating Federal drug 
control policy across the multitude of Federal agencies that a 
role in shaping national drug control policy. There used to be 
committees on supply reduction, demand reduction, and science 
and technology. They no longer exist.
    So what about ONDCP's future? I believe ONDCP has a future 
role, but only if certain changes occur. The statutorily 
mandated organizational structure that reflected the 1980's 
cocaine drug war that was designed originally by the 1988 Drug 
Control Act must be reconsidered. We are now fighting a modern 
day drug war with old bureaucratic technology.
    Second, ONDCP must rediscover its roots by again becoming a 
leader in policy formulation to develop a drug policy that is 
evidence-based and includes a performance measurement system to 
hold it accountable for results. ONDCP must fix the drug 
budget, as we talked about earlier. It must re-establish a 
performance measurement system. As far as I can tell, it does 
not have one. It must jettison to other agencies, perhaps, some 
of the programs that are distracting it from its core policy 
formulation mission, such as Drug-Free Communities.
    It must rebuild and promote data surveillance systems to 
track emerging drug use problems. Let's face it, it missed the 
ball on prescription drugs and methamphetamine because it 
lacked such systems. It took this Congress and the previous one 
to get involved and make ONDCP pay attention to these 
particular issues. And, finally, it must become part of the 
movement toward electronic health records. The entire health 
care industry is currently being transformed by the 
introduction of electronic health care records. This will help 
move drug treatment into the mainstream with all of health 
care.
    In summary, it is my view that ONDCP is not now serving the 
Nation's interest in addressing the drug problem; it has 
ignored many of its legal responsibilities; and, most 
seriously, it is now not informing the Nation about the 
totality of the drug problem.
    This concludes my comments, and I thank you for your time 
and attention.
    [The prepared statement of Mr. Carnevale follows:]

    [GRAPHIC] [TIFF OMITTED] T1699.032
    
    [GRAPHIC] [TIFF OMITTED] T1699.033
    
    [GRAPHIC] [TIFF OMITTED] T1699.034
    
    [GRAPHIC] [TIFF OMITTED] T1699.035
    
    [GRAPHIC] [TIFF OMITTED] T1699.036
    
    [GRAPHIC] [TIFF OMITTED] T1699.037
    
    [GRAPHIC] [TIFF OMITTED] T1699.038
    
    [GRAPHIC] [TIFF OMITTED] T1699.039
    
    [GRAPHIC] [TIFF OMITTED] T1699.040
    
    [GRAPHIC] [TIFF OMITTED] T1699.041
    
    Mr. Kucinich. Thank you. We will be interested in 
questions.
    Ms. Pacula, please proceed.

          STATEMENT OF ROSALIE LICCARDO PACULA, PH.D.

    Ms. Pacula. Thank you, Mr. Chairman and Mr. Cannon. It is 
my pleasure to be here today, and thank you for inviting me. As 
was stated before, I am a senior economist at RAND and co-
director of RAND's Drug Policy Research Center. So, as an 
economist, I tend to examine policies in terms of their impact 
on markets and behaviors, as well as their cost-effectiveness 
vis-a-vis other strategies with the same objectives. My 
testimony today reflects that perspective applied to the 
Nation's drug problem.
    In my view, the 2008 National Drug Control Strategy has 
three general shortcomings that need to be examined by Congress 
when you are considering appropriations in the 2009 budget. 
First, as has already been noticed and discussed, the strategy 
does not provide the appropriate balance between enforcement, 
prevention, and treatment to tackle the current U.S. drug 
problem. Second, it fails to make adequate use of scientific 
research regarding the effective and ineffective policies that 
we are pursuing today. And, third, it presents a very narrow 
representation, as was mentioned already by Mr. Carnevale, of 
the drug situation by ignoring the important indicators of 
chronic use.
    To provide a little more background on each of these, first 
with respect to the current balance of enforcement, prevention, 
and treatment strategies, as has been mentioned already, there 
is RAND research that talks about the cost-effectiveness of 
alternative strategies in this regard, and it has demonstrated 
that we have far surpassed the point of diminishing marginal 
returns with respect to our supply side interventions for 
cocaine.
    A far more effective and cost-effective way of dealing with 
the problem in the United States would be to allocate more 
resources to treatment, instead of to supply side strategies. 
Treatment, according to RAND research, is at least five times 
more effective at diminishing consumption than either source 
country control or interdiction. It also generates 
substantially greater reductions in serious crime than 
conventional enforcement or mandatory minimum sentences.
    The treatment's larger cost-effectiveness has to do with 
the fact that we are dealing with a mature drug market. An 
immature drug market is heavy in chronic users, represent the 
much larger fraction of total users, and the vast majority of 
consumption. Thus, policies targeting these chronic users will 
have the greater impact in terms of reduction in total 
consumption.
    Second, the strategy's failure to make adequate use of 
scientific findings. ONDCP continues to advocate funding for 
particular strategies that have weak or no scientific evidence. 
Examples of these include the $85 million to Colombia to fund 
rule of law, human rights, and judicial programs that have no 
scientific basis for impacting the price or purity of cocaine 
here in the United States. Second, there is the spending of 
$336 million drug control in Afghanistan that isn't likely to 
affect the U.S. heroin markets because, as Mr. Walters 
explained, the United States doesn't get our heroin from 
Afghanistan. While these policies may serve other national 
interests, justifying this part of the drug control budget is 
difficult at best.
    As I am sure this committee is aware, although ONDCP has 
been advocating the National Youth Anti-Media Campaign, three 
different evaluations of the campaign have shown that the 
campaign has had absolutely no effect on drug use among youth. 
At the same time, they are ignoring significant research 
showing that expansion of the pharmacotherapies--in particular, 
methadone maintenance and buphenorphine--and evidence-based 
school curriculum could have a very significant effect on the 
prevention strategies. Instead, it chooses to emphasize 
policies, such as random drug testing, for which the research 
is relatively thin.
    The final point is that it narrowly represents the current 
U.S. drug problem. As Mr. Carnevale has already explained, the 
drug problem in the current strategy is largely expressed in 
terms of youth drug use and in workplace drug testing. Nowhere 
does it discuss the important indicators of chronic drug use, 
such as race or dependence, overdose, and HIV, which are common 
measures used in other western countries for describing the 
drug problem. This is not something that we are advocating 
because it is a silly idea; this is what other countries do to 
help measure their drug problem, and it should be considered as 
part of our drug problem, at least measures of performance in 
tackling the problem.
    The current strategy does make three important 
contributions that I would like to highlight. First, the focus 
on brief interventions and screening in the medical profession 
is a great idea and should be encouraged, and I am pleased to 
see the strategy does so. Second, it appropriately considers 
policies on a drug-by-drug basis. Given that the supply and 
demand for each of these substances differs so substantially, 
the mix of policies really depends on the drug you are 
considering. And, finally, the strategy gives serious 
consideration to the relevance of data collection by pouring 
more funding back into the collection of information through 
the National Survey of Drug Use and Health and ADAM. All of 
these I view as very important steps in a positive direction to 
help us improve our understanding of the drug problem here in 
the United States.
    [The prepared statement of Ms. Pacula follows:]

    [GRAPHIC] [TIFF OMITTED] T1699.042
    
    [GRAPHIC] [TIFF OMITTED] T1699.043
    
    [GRAPHIC] [TIFF OMITTED] T1699.044
    
    [GRAPHIC] [TIFF OMITTED] T1699.045
    
    [GRAPHIC] [TIFF OMITTED] T1699.046
    
    [GRAPHIC] [TIFF OMITTED] T1699.047
    
    [GRAPHIC] [TIFF OMITTED] T1699.048
    
    [GRAPHIC] [TIFF OMITTED] T1699.049
    
    [GRAPHIC] [TIFF OMITTED] T1699.050
    
    [GRAPHIC] [TIFF OMITTED] T1699.051
    
    [GRAPHIC] [TIFF OMITTED] T1699.052
    
    [GRAPHIC] [TIFF OMITTED] T1699.053
    
    [GRAPHIC] [TIFF OMITTED] T1699.054
    
    [GRAPHIC] [TIFF OMITTED] T1699.055
    
    [GRAPHIC] [TIFF OMITTED] T1699.056
    
    [GRAPHIC] [TIFF OMITTED] T1699.057
    
    Mr. Kucinich. Thank you very much.
    We have been joined by Representative Cummings from 
Maryland.
    I would like to start the questioning talking about the 
supply side initiatives, and I would like both of the witnesses 
to respond to the questions. How should we regard the success 
of ONDCP's source country eradication and interdiction 
initiatives, including Plan Colombia, in terms of reducing drug 
abuse domestically?
    Mr. Carnevale, let's start with you.
    Mr. Carnevale. Sir, I think, first of all, to do a proper 
assessment, we need to have some performance indicators related 
to those programs, and we do not right now. In the past----
    Mr. Kucinich. So you are saying the only way to really make 
an evaluation is to have performance indicators?
    Mr. Carnevale. Is to have performance indicators. We used 
to look at issues related to prices and purity; we used to look 
at what we called the trafficker's success rate in getting 
drugs from source countries into the United States; and we 
would look at the source country, the trend zone and the 
reliable zone, and we would measure, based on estimates of 
flow, how much we were seizing. So these measures no longer 
exist.
    Mr. Kucinich. So if you don't have performance indicators, 
you can't assess the performance.
    Mr. Carnevale. Well, yes, exactly.
    Mr. Kucinich. So if you are playing baseball, you don't 
keep track of the runs, hits, and errors, batting average and 
stuff, how do you know?
    Mr. Carnevale. Yes, that is exactly right.
    Mr. Kucinich. Ms. Pacula.
    Ms. Pacula. Yes, I would agree. There was a research 
publication by Jonathan Caulkins talking about the fact that it 
is very difficult----
    Mr. Kucinich. Closer to the mic, please.
    Ms. Pacula. The indicators that we used to use to look at 
the impact on total consumption, including the ADAM data, which 
got scrapped, basically, as of 2003, doesn't exist today to be 
able to do a careful evaluation of what the impact of these 
policies were.
    Mr. Kucinich. Do you think it is by design that this 
information just is not available, or is it just overwhelmed 
with other objectives? Do you want to offer an opinion on that?
    Ms. Pacula. I can't offer an opinion on that, I don't know.
    Mr. Kucinich. Let me ask you something else here, and I 
will start with Ms. Pacula. How do you view the wisdom of using 
reductions of youth marijuana usage rates as a key measure of 
success of the Nation's drug control programs?
    Ms. Pacula. I think watching youth marijuana use rates is 
important, but I think it is very improper to consider success 
or failure of any strategy based off simple correlations in 
data. There is a lot of different initiatives and strategies 
going on, and you need to tease out things that are going on 
generally in markets to be able to identify the true effect of 
any particular policy in determining that trend.
    Mr. Kucinich. We are going to have a future hearing just on 
marijuana policy generally, so we won't get into that much more 
than that.
    Mr. Carnevale.
    Mr. Carnevale. Yes, I would agree, absolutely agree. First 
of all, youth drug use is just one indicator of success for 
strategy. There is drug use initiation, then there is adult 
drug use, and then there is addiction. And then, of course, we 
shouldn't be limiting our sights, in terms of performance, just 
on drug use; there is drug availability and then, of course, 
there is drug use consequences, health and crime consequences 
that you had raised earlier. All of these are missing. So, at 
this point, my view is you can't say the National Drug Control 
Strategy is successful just because youth drug use is 
declining.
    Mr. Kucinich. Right.
    Mr. Carnevale. That is very good news, but it is not the 
only news, and the rest of the news, I think, is quite bad.
    Mr. Kucinich. Mr. Carnevale, how do you view ONDCP's 
approach to harm reduction programs such as needle exchange and 
naloxone? And why do you believe that ONDCP has so strenuously 
attacked harm reduction programs such as needle exchange 
programs and naloxone? Is it fair to say that in the wider 
public policy and public health communities these types of 
initiatives are relatively non-controversial?
    Mr. Carnevale. It is hard for me to explain their reasoning 
because I find their position a little confusing. For example, 
we do support methadone programs in the United States, which, 
if you step back, is a form of harm reduction. So we still have 
a mixed view, I think, coming out of this administration on 
this very topic.
    I can't speculate why this current director doesn't like 
needle exchange, for example. The issues traditionally boil 
down to whether or not Federal funds should be used out of the 
substance abuse block grant for that program. But local 
governments of a lot, including the District of Columbia, are 
doing very well with these needle exchange programs, using them 
for outreach to help get people into treatment.
    Mr. Kucinich. Thank you.
    Ms. Pacula, would you like to respond to that at all? Can 
you add anything?
    Ms. Pacula. No, I think that Mr. Carnevale summed it up.
    Mr. Kucinich. OK, thank you. We are going to go to 
questions.
    Mr. Cannon has 5 minutes.
    Mr. Cannon. Thank you, Mr. Chairman.
    Mr. Tom Siebel of Siebel Systems ran a program a couple of 
years ago in Montana. Ms. Pacula, are either of you familiar 
with that program?
    Ms. Pacula. RAND is currently being funded by the Meth 
Project Foundation, which is the program you are talking about, 
to do an assessment of the economic cost of methamphetamine in 
the United States.
    Mr. Cannon. And Mr. Siebel produced a series of ads that he 
is going to show in Montana and was going to measure the effect 
in Montana to try and get some data on how effective that 
program can be. Are you familiar with that?
    Ms. Pacula. I am not familiar with the media campaign; we 
weren't involved in evaluating any of the programs that he put 
in place, only in terms of measuring the burden of the problem, 
the meth problem.
    Mr. Carnevale. I am familiar with the campaign, but I have 
not yet seen any evaluations of it. But there is a lot of 
anecdotal information coming out of the State saying that they 
are seeing progress, but I am an analyst like Rosalie, and I 
would prefer to see an evaluation of that program.
    Mr. Cannon. And I think that his whole point was to do this 
in a place where you could actually measure and get some 
progress. So I take it that we have not had enough time here to 
actually get some data out of that system to see how well that 
is working.
    Mr. Carnevale. I am not aware of any study as of right now 
on the effect of that campaign.
    Ms. Pacula. Yes, I am aware that they are collecting data 
so that an evaluation can be done, but I am not aware that an 
evaluation has been done.
    Mr. Cannon. Anecdotally, are we seeing significant 
reductions or do we have any sense of the data there at all?
    Mr. Carnevale. Well, I am one of these people who agreed 
with the previous director of NIA that the plural of anecdote 
is not data, so the anecdotal information is just that. People 
have a tendency to report good news when they are putting a lot 
of money into programs, and this program is being promoted, I 
believe, by the Partnership for Drug-Free America, or at least 
they are working together with them. So I am hopeful that it is 
working, but I have not seen any real results.
    Mr. Cannon. I think your distinction between anecdotes and 
mini-anecdotes and data is significant. Do you have a sense 
that they are actually looking at this that will produce 
scientific data?
    Mr. Carnevale. I will defer to you, Rosalie, on that one.
    Mr. Cannon. I know you are doing it, obviously, at a pretty 
high level, at least a part of it, and I suspect that shows a 
commitment by Mr. Siebel to come up with serious data.
    Ms. Pacula. I am familiar with what the Meth Project is 
trying to do both in Montana, as well as Arizona, and spreading 
to the other States in which they are promoting the program, 
and there is a concerted effort to collect reasonable 
information for measuring the problem. Evaluating the 
effectiveness of the strategy is important to consider in light 
of the other State and national programs that are going on, and 
I don't know to the extent that they are collecting that 
information to do the full evaluation.
    Mr. Cannon. Well, there is a world of data. It will be 
interesting to see. I found the ads compelling and shocking, 
and hopefully they will be helpful.
    Mr. Carnevale, you talked about e-health care records, and 
I take it what you are talking about there is just a focus on 
health records so you can distill from that patterns about 
illicit drug use.
    Mr. Carnevale. There is a lot to be gained from the 
adoption of electronic health records. First of all, when you 
start talking about electronic health records in the area of 
substance abuse, you are automatically talking about substance 
abuse as part of a broader health care issue, which is an 
improvement, I think, on how we should be thinking about this 
issue. That is No. 1.
    No. 2, electronic health records are going to produce a lot 
of information and data in terms of the clients who are being 
served by these programs, and that information will be very 
valuable in helping us assess effectiveness of treatment.
    Mr. Cannon. Are you talking about e-health records on 
people who have been convicted of crime and therefore have 
lost, to some degree, their privacy rights, so you are talking 
about access to those health records to evaluate drug programs 
in an environment----
    Mr. Carnevale. One of the issues of electronic health 
records is actually to protect the confidentiality and the 
privacy of drug users. Under one law, 42 C.F.R. Part 2, there 
are very strict restrictions on how information flows from one 
doctor to another about a patient's health, and that is one of 
the issues that is being worked out now by the Substance Abuse 
and Mental Health Services Administration.
    Mr. Cannon. But your focus here is very narrowly on people 
who have been in drug treatment programs.
    Mr. Carnevale. Yes.
    Mr. Cannon. You are not looking at e-health records to say, 
oh, there is an up-tick on Percocet use and, therefore, we may 
be seeing a new trend?
    Mr. Carnevale. No, although there may be that potential to 
use this, because when people present for treatment, they are 
going to be filling out on these electronic health records why 
they are presenting for treatment, which drugs they have been 
using. So down the road there is that potential.
    Mr. Cannon. We care a lot about the effect of that.
    Mr. Chairman, would you allow me to ask one more question?
    Mr. Kucinich. Of course.
    Mr. Cannon. Do we have enough data to know if you can fix a 
person who has been addicted to meth? My experience has been 
very bleak. Not my personal experience, but with people who 
have had a problem with meth. We have had a large number of 
people in my area. Is there a path that we know that works for 
some, for even a few people that have been addicted to meth?
    Mr. Carnevale. Congressman, yes. In fact, the Substance 
Abuse and Mental Health Services Administration is promoting 
what is called its matrix model in terms of treating meth 
users, and it has been highly effective. So in terms of 
treatment protocols, you can expect people to be put into 
residential programs and perhaps intensive outpatient programs 
and so on.
    But these people are treatable; they can be cured. It may 
take a longer time; they may have more serious problems in 
terms of not just their own addiction, but what happens to 
their children. We talk a lot about drug-endangered children 
and so on. So there are a lot of other social problems 
associated with their recovery in terms of getting them back in 
the community, back in their families, but the answer is yes.
    Mr. Cannon. Well, that is hopeful. I have not yet seen much 
hope.
    Thank you, Mr. Chairman. I yield back.
    Mr. Kucinich. To Mr. Cannon, this is one of those areas, 
given the seriousness of it and what is happening in 
communities across the country, that we are likely, at some 
time in the future, to come back and go in-depth into the 
methamphetamine issue. So you, of course, would be very 
valuable.
    Mr. Cannon. Thank you very much. I actually founded the 
Meth Caucus and have followed this now for most of my career in 
Congress. I am deeply depressed about my experience with people 
who have been engaged with meth and hopefully Mr. Siebel's 
program will work so we can help people avoid it and then come 
up with a program that will help people actually get off it. It 
is horrible.
    Mr. Kucinich. I just want staff to be mindful that we have 
a bipartisan interest in looking at a future hearing on that.
    Mr. Cummings, thank you very much for being here. You may 
proceed with questions.
    Mr. Cummings. Ms. Pacula, am I pronouncing that correctly?
    Ms. Pacula. Yes, you are.
    Mr. Cummings. If I am not mistaken, you were the co-author 
of the RAND analysis on the ONDCP, is that right?
    Ms. Pacula. On the price purity report, yes.
    Mr. Cummings. OK. And that was based on the release of its 
most recent price and purity estimates in 2004, is that right?
    Ms. Pacula. The data went through the third quarter of 
2003. I was co-author on the previous report. Did the last 
report come out?
    Mr. Carnevale. They did their own report.
    Ms. Pacula. Yes, but I am not sure----
    Mr. Cummings. So you did up to 2003.
    Ms. Pacula. Correct.
    Mr. Cummings. And tell me what your findings were, what 
jumped out at you.
    Ms. Pacula. Basically saw a continuation of the declines in 
the price of both cocaine and heroin over time, well into the 
early 2002, that we had been observing from before, a 
continuation of the declines with little blips.
    Mr. Cummings. A decline in the price?
    Ms. Pacula. Price per pure gram, so adjusted for purity.
    Mr. Cummings. So that means it was getting cheaper, is that 
what you are saying?
    Ms. Pacula. Yes.
    Mr. Cummings. And so that led you to conclude, I guess, 
that we weren't being very effective.
    Ms. Pacula. We draw no conclusions regarding the 
effectiveness of any process.
    Mr. Cummings. Did you think about it while you were going 
through it?
    Ms. Pacula. Yes.
    Mr. Cummings. OK. I am not asking you for your conclusions, 
I am just asking you what you thought.
    Ms. Pacula. Actually, the team that contributed to that 
report had some very different conclusions regarding what we 
learned from that study.
    Mr. Cummings. And what did they say?
    Ms. Pacula. The general discussion was that the price has 
been falling and it could be interpreted as our policy is not 
working, but it could also be interpreted as a major change in 
how these drugs are being produced and delivered that we are 
not accurately capturing or targeting with our current 
initiatives.
    Mr. Cummings. So, when you have a conflict like that, when 
you have a mixture there--you have some people saying, well, 
looks like we are not doing too well, then you have another 
group saying, well, you know, conditions have changed--how do 
you all reconcile that? Or do you?
    Ms. Pacula. Our purpose of that analysis was simply to 
generate the price trends given the data. We were not asked to 
comment or evaluate the policies in that report.
    Mr. Cummings. Mr. Carnevale, comment?
    Mr. Carnevale. My background is policy, but a lot of times 
looking at the drug prices going back 20 years----
    Mr. Cummings. So you are the man.
    Mr. Carnevale. Well, let me pretend to be at least for the 
next 5 minutes.
    Mr. Cummings. All right, well, you will be the man for the 
day. All right, go ahead.
    Mr. Carnevale. Just for the day.
    In terms of looking at long-term price declines, in terms 
of what Rosalie said, she is absolutely right, it has been a 
long-term decline. There have been some temporary increases in 
prices where we have seen price adjusted for purity go up, but 
these have always been transitory. And in evaluations that we 
did out of my old office of research in the Office of National 
Drug Control Policy, we would look at things about was there an 
increase in treatment demand associated with alleged shortages 
in the market, but we never could find any of that.
    In terms of what ONDCP is recording now, I worked with the 
press and they called a lot of cities--because I don't have a 
big staff anymore--and they did not see--lots of chiefs of 
police did not report what ONDCP was suggesting in terms of 
prices and purity.
    Mr. Cummings. And ONDCP was saying that the price was going 
on.
    Mr. Carnevale. Price was going up and----
    Mr. Cummings. And it was getting scarce.
    Mr. Carnevale. Getting scarce and----
    Mr. Cummings. But the police department heads were saying 
something else.
    Mr. Carnevale. They were scratching their heads about this, 
quite frankly. And the treatment programs we looked at locally 
were not reporting people suddenly running to treatment because 
they couldn't find any more cocaine. So it was my conclusion, 
as a policy person, we were just seeing, if there was an 
increase--and we have had increases in the past 20 years in 
certain markets--these tend to be temporary. In my mind, as I 
always said, as long as there is a demand for cocaine, there 
will be a supply, and profits.
    So I agree with Rosalie in terms of, when thinking about 
maybe traffickers are changing tactics, more is getting in, but 
I don't see much hope in what is going on with drug prices 
right now in terms of winning the drug war.
    Mr. Cummings. So----
    Ms. Pacula. Can I add something?
    Mr. Cummings. Yes.
    Ms. Pacula. We did do some specific analysis with respect 
to methamphetamine precursor chemical levels, and we did find a 
very significant temporary effect of these national--and even 
the State--policies relating to the availability of cold 
medications on the price series, and they are short-lived. But 
the fact that they have an effect suggests that enforcement is 
effective in certain markets for short periods of time.
    Why is it not a longer effect is the fundamental question. 
And I think something that we have to keep in mind when looking 
at price series is that they reflect supply as well as demand, 
and supply is not a fixed production process; it is a very 
fluid process and can change dramatically and very quickly, as 
we saw the crackdown here in the United States cause 
methamphetamine to grow in terms of our sources in Mexico. So 
supply is changing and how it is supplied is changing, and we 
can't always adequately reflect that in these series. We need 
to keep that in mind.
    Mr. Cummings. And I guess we have to look and try to figure 
out--I mean, as far as prevention is concerned, do you think 
the programs we have are effective at prevention?
    Ms. Pacula. I believe there are definitely some programs 
that are very effective in prevention. I don't believe that all 
the prevention programs being proposed and the strategy are 
effective.
    Mr. Cummings. And which ones do you feel are the most 
ineffective?
    Ms. Pacula. The Youth Anti-Drug Media Campaign.
    Mr. Cummings. A little bit louder.
    Ms. Pacula. The Youth Anti-Drug Media Campaign has been 
show in three different evaluations to have no impact on use 
among youth.
    Mr. Cummings. I just need 1 more minute.
    It is interesting, a few years ago I had the drug czar--
this is about 4 years ago--come to my district, and we took the 
Media Campaign. We actually had, at random, about 100 kids, 
high schoolers to look at the commercials to kind of rate them, 
because back then they didn't seem like they were having any 
effect on African-American kids. So I figured, you know, let 
them come in and watch them with the drug czar. And the 
interesting thing, the only two that they felt were most 
effective was the one where the person says their brains are 
frying and the other one was Lauryn Hill, because they said 
that they felt like she could relate to their lives. Other than 
that, they said you could throw them all in the trash. And I 
found that very interesting. And I don't know whether the drug 
czar did anything with that, but it makes no sense for us to be 
spending a phenomenal amount of money on a media campaign and 
it not be getting into the kids' heads.
    Mr. Carnevale. Congressman, in terms of the study that was 
done, a really large study that was done that spent over $40 
million to evaluate this, it also had the strange finding that 
the kids exposed to the ads, the Media Campaign ads, tended to 
have higher rates of drug use than those who never saw the ads. 
So that is something, as a researcher, I would like to know 
more about that, but as a policy person I think the current 
budget is $60 million. It used to be close to $200 million. In 
my mind, it is time for this program to go.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Kucinich. Thank you for raising that issue, because 
that is critical. One of the hearings we are going to have is 
going to see peer-to-peer efforts to try to lessen drug usage. 
Instead of media efforts, peer-to-peer.
    We are going to just go to a final round of questions here. 
We have votes coming up soon.
    Mr. Carnevale, can you explain your understanding of the 
budget reporting issue, including the policy reasons behind the 
ONDCP's decision to eliminate large portions of the National 
Drug Control budget in 2003, Congress's efforts to mandate that 
they be reinstated and how this dispute fits in to larger 
issues of ONDCP's accountability and priorities?
    Mr. Carnevale. Congressman, let me just start by saying I 
completely disagree with Mr. Walters with regard to his 
decision and his rationale in terms of cutting some of the 
programs that he cut. Throwing out $4.5 billion worth of money 
that represented Federal drug control agency spending to me 
just doesn't make sense if you are trying to have an informed 
policy. Programs like the Bureau of Prisons, as he said, they 
are at the receiving end of sort of a process that begins at 
the front end with someone making an arrest and then 
prosecution, and then someone being incarcerated. In my mind, 
to have an informed public policy, we need to know sort of the 
back-end or downstream cost associated with some of these 
policies that we have in place.
    I, for the life of me, don't know why they have put this 
appendix table in the back of the budget. I have read it, I 
looked at it, and there are a lot of programs in there, for 
example, that fund treatment directly that should be part of 
the budget, and in my mind--and I was around at the origins of 
this drug budget methodology back in OMB back in 1985, when we 
started to estimate a comprehensive budget, and I, for the life 
of me, can't understand why we are now throwing out so much of 
this money that----
    Mr. Kucinich. What is the practical effect of the direction 
we are going in right now?
    Mr. Carnevale. Well, it means, in terms of your job and 
Congress's job and the administration's job to come up with a 
rational drug policy and really understand how it is working, 
you are not going to be looking at a lot of programs that are 
drug related or have impacts.
    As I said before, if we decide to give DEA a lot more money 
for its mobile enforcement team program, where it goes out into 
communities and makes arrests, these are Federal arrests, and 
it is going to affect the Bureau of Prisons. And I think it is 
important that we think about the downstream costs, and if we 
don't, the Bureau of Prisons will have no avenue to sort of 
express itself in terms of the impact of these kinds of----
    Mr. Kucinich. It was interesting hearing your testimony at 
the beginning, Mr. Cummings. He talked about the fact that 
there hasn't been changes in a number of areas since 2002 that 
drug use has not changed from 2002 to 2006.
    Mr. Carnevale. That is correct.
    Mr. Kucinich. That cocaine use has increased.
    Mr. Carnevale. It is increasing. Overall drug use has 
remained flat; youth drug use has come down; adult drug use is 
flat or increasing, basically; addiction rates are unchanged.
    Mr. Kucinich. But when you start to look at the amount of 
money that is being put out here for these programs and then 
the lack of metrics, which is the whole purpose of this 
committee hearing, it puts us in a place where the shifting 
goals that the ONDCP has adopted really raises the question if 
they have dropped goals that they can't meet or haven't met. 
There is even a book, as you are probably aware of it, called 
Lies, Damn Lies and Drug War Statistics, devoted to exposing 
these kinds of practices.
    Mr. Carnevale. Right.
    Mr. Kucinich. Now, this kind of criticism, is it overstated 
or does it have traction? I mean, is this subcommittee looking 
at something that you think has merit or are we moving in the 
wrong direction?
    Mr. Carnevale. I hope this subcommittee continues to press 
very hard to get ONDCP to correct this budget. One thing I 
really, in a sense, feel a little concerned about is the fact 
that the drug czar has made a very clear statement that this is 
no longer his problem; he is going to hand it off to the next 
drug czar in the next administration, and my concern is what do 
we do. My real worry about drug policy----
    Mr. Kucinich. I was wondering about that myself.
    Mr. Carnevale [continuing]. As you know, the next 
administration has a chance to make this office more effective 
by making it comply with the current law by making it put a 
performance measurement system in it, do a comprehensive 
accounting of the budget, to really engage in interagency 
process, in a dialog about policy, to engage the State and 
local sector like it used to do. It is not doing a lot of 
things that it used to do and it is hurting us.
    Mr. Kucinich. And, you know, in truth, we are looking at 
about 11 full months before a new administration would come in, 
so it is a lot of money being spent; there are a lot of program 
directions being made. We are flying blind here.
    Mr. Carnevale. I agree. Based on this budget, you are not 
getting the full picture of what the Federal Government is 
doing with regard to drug control.
    Mr. Kucinich. Well, we are not going to let this go. I 
mean, this is one thing I know Mr. Cummings and I have the same 
opinion on. We are going to continue to dig into this. Today 
was kind of an introductory session, but the thinking that you 
have just shared with us is something that concerns a number of 
us on the committee.
    Let me just see if I have any followup questions before I 
go to Mr. Cummings. Again, Mr. Carnevale, can you explain the 
connection, if any, between the accountability issues that we 
have discussed here, such as the comprehensiveness of ONDCP's 
budget its lack of timely and sufficient reporting to Congress, 
its use of statistics, and its overall success in advancing 
pragmatic and effective national drug control policies?
    Mr. Carnevale. I couldn't hear the very first part of that 
question, Mr. Chairman.
    Mr. Kucinich. Can you explain the connection, if any, 
between accountability issues that we have discussed and their 
performance?
    Mr. Carnevale. No. I mean, at this point, ONDCP does not 
have any accountability system in terms of its strategy. We 
cannot attribute the role of treatment prevention, law 
enforcement, source country programs, interdiction to drug use, 
in this case youth drug use; and I think ONDCP needs to be held 
accountable for reporting to Congress. There are a number of 
requirements under the current law that I simply think ONDCP is 
ignoring, and I think this committee can do a great service to 
this country by getting them to comply.
    Mr. Kucinich. We are going to persist.
    Mr. Cummings, do you have any final questions?
    OK, I just want to say this. We will have some followup 
questions in writing to submit to ask you to answer, and your 
ability to give us truly an impartial view is going to enable 
this committee to do not just effective oversight, but to try 
to make these programs work.
    So, with that, I want to thank the witnesses for their 
participation. We have just made a beginning here.
    This has been a hearing of the Domestic Policy Subcommittee 
on Oversight and Government Reform, a hearing on the National 
Drug Control Strategy for 2008, Fiscal Year 2009 National Drug 
Control Policy and Compliance with ONDCP's Reauthorization Act 
of 2006: Priorities and Accountabilities at ONDCP. I am 
Congressman Kucinich, the chairman of the subcommittee. I am 
here with ranking member, Mr. Cannon. I want to thank all the 
Members who have participated and the staff that have helped us 
in our hearing that now has spanned almost 3 hours, with some 
interruptions for votes.
    So to everyone in the audience, thank you. I want to assure 
you that we will stay focused on these issues as a matter of 
public welfare and the spiritual welfare of this country.
    So thank you. This meeting stands adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
